/

■

'

k

JO-6676
fB0i#SS
IN THE

Jjj I

s

SUPREME COURT OF THE UNITED STATES

HERNANDEZ

DANIELS

(Your Name)

— PETITIONER

VS.

(STATE OF FLORIDA

filed
NOV 2 3 2020

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

’

^ST district court OF APPFAT.

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

HERNANDEZ

DANIELS

(Your Name)

FEDERAL CORRECTIONAL COMPLEX
COLEMAN TJSP-1

P.O. BOX 1033_____

(Address)
COLEMAN,

vi.

33S?1
/

(City, State, Zip Code)

I
Nil

(Phone Number)

RECEIVED
DEC - 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S,

(

QUESTION PRESENTED
I
Whether suppression of (some) evidence is sufficient
according to the procedures mandated by Bradv v
Maryland,373 U.S. 83 S. Ct. 1194, 10 L. Ed. 2d(1963).
*
II
Whether effective assistance extend to presenting
alibi and pursuing Brady violation, pursuant to the
holdings in Strickland v. Washington,466 U.S 668
L. Ed. 2d 674, 104 S. Ct. 2052(1984).

i

J

LIST OF PARTIES

M All parties appear in the caption of the case on the cover page.
t j All parties do not appear in the caption of the case on the cover page A list of
petition h; MoT^"8 “ ““
Wh°Se ****** *
object of this

ii

table of content
QUESTION PRESENTED.............................
i
PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW...........
1
STATEMENT OF JURISDICTION..........................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE.......................................

1
1
2

REASON FOR GRANTING THE WRIT........................
4
A. This Court Should Resolve the Split of
Authority Over Whether Suppression of
(Some) Evidence is Sufficient According
to the Procedures Mandated By Brady...
B. This Court Should Resolve Whether
Assistance Extend to Presenting Alibi
and Pursuing Brady violation, Pursuant
to the holdings in Strickland.........

r
5

1

18

CONCLUSION.
.25
UNDM i GF'APEENDIi:E S

APPENDIX A. ORDER DENYING PETITIONER’S RULE 3.850 MOTION
tm amr CIRCUIT 0-F THE SECOND JUDICIAL CIRCUIT---IN AND FOR GADSDEN COUNTY, FLORIDA

appendix b. ORDER AFFIRMING THE CIRCUIT COURT FOR
GADSDEN COUNTY DECISION OF PETITIONER'S
RULE 3.850 MOTION
'

appendix c. SUPREME COURT OF FLORIDA ORDER DISMISSING
PETITIONER’S CASE
APPENDIX D. FDLE INVESTIGATIVE REPORT
APPENDIX E. TESTIMONY OF APPELLANT
APPENDIX F. TRIAL ATTORNEY MR. TAYLOR’S TESTIMONY
APPENDIX G. WITNESS OVERVIEW
APPENDIX H. ATTORNEY GENERAL RESPONSE

iii

table of citations
CASES
PAGE(S)
1. Brady v. Maryland,373 U.S. S3 S.
Ct. 1194.10 L. Ed.
2d(1963)
4.5,6,7,8,9,
1'PJ H 31?3133 H* 13} Hi 17j 18} 19121722,‘23
Giglio..
Haber v. Wainwright,756 F.

Kyles v. Whitney,514 U.S.
Mahler v. Kaylo,537 F.

,S,9,10,12}13}16,22,23

2d 1520(llth Cir.1985)
419(1995)......................

3d 494,494(5th Cir.2008)

Matias v. Artuz,8 Fed.

11
11,18,24
10

Appx. 9,11—12(2d Cir. 2001)
16
Miller-El v • Cockrell,537 U.S.
322,327,123 S. Ct. 1029,1034...17
Norris v • Schotten,145 F.
3d 314,334(6th Cir.1988)
10
Ramdass v • Angelone,530 U.S.
156,165-66, 120 S. Ct. 21132119-20, L. Ed.
2d 125, 135-36(2000)
14
Slack v • McDaniel,529 U.S.
473,484,120 S. Ct. 1595,1604,
146 L. Ed. 2d 542,555(2000)
16
Strickland v • Washington,466 U.S.
668 L. Ed. 2d 674,104 S.
Ct. 2052(1984).
.........18,19,21,22,24
United States v • Bagley,427 U.S.
667,582,105 S. Ct.
3375,3383,87 L. Ed. 2d 481,494(1985)
24
Williams v. Taylor,529 U.S.
362 406,120 S. Ct. 1495,
1519-20, 146 L. Ed.
2d 389,426(2000)...........
H
2. JURISDICTION
1
3. OTHER AUTHORITIES...
.1
FIFTH? SIXTH,
Add FOURTEENTH AMENDMENT

iv

PETITION FOR WRIT OF CERTIORARI
Hernandez Daniels petition for a writ of certiorari to the
First District Court of Appeal, in State v. Daniels, No. 2005844CFA; No. 1D20-0260.
OPINIONS BELOW
The opinion of the First District Court of Appeal is at
No. 1D20-0260. The order of the Florida Supreme Court dismissed
discretionary review of the decision is at No. SC20-1632. The
trial;.'Court's sentencing orders are published at No. 2Q05-844CFA.
STATEMENT OF JURISDICTION
The Florida Supreme Court issued its order denying Petitioner's
petition for review on November*?, 2020 C3se No. SC20-1632 The
First District Court of Appeal issued its decision Affirming appeal
from the Circuit Court for Gadsden County on August 28, 2020 and
denying Panel Rehearing on October 27, 2020.
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The Fifth Amendment to the United States Constitution
provides in relevant part: "No person shall be held to answer
for ...
a capital, or otherwise infamous crime, unless on a prestment
or indictment of a Grand Jury...]NI or shall any person be subject
tor the same offense to be twice out in jeopardy of life or
limb... [NI or be deprived of life, liberty, or property, without
due process of law".
The Sixth Amendment to the United States Constitution
provides m relevant part: "Any person shall have guaranteed
right to effective assistance of counsel. "iNlor be deprived of
liberty, or property, without due process of law".
The Fourteenth Amendment to the United States Constitution
provides in relevant part:
INlor shall any State deprive any
person of life, liberty, or property, without due process of law"..

1

STATEMENT OF CASE
On December 30, 2005, petitioner

was charged with first-degree
murder. Petitioner' trial
commenced on February 11, 2009 in Gadsden
County before the Honorable
Kathleen Dekker. "Petitioner trial
concluded on February 17, 2009, with the i
lury returning a verdict
of guilty. On February 20,
2009, Petitioner received life
imprisonment. On May 1 9, 2009, Petitioner:
filed a timely Notice
of Appeal. On September 28, 2010,
First District Court of Appeal
denied Petitioner’. appeal. On January 7,
2013, Petitioner filed a
Memorandum of Points and Authorities i
pursuant to Florida Rule
of Criminal Procedure 3.850.
The premise of Petitioner Daniels
claim were asses by the
Honorable Johnathan Sjostrom,
on May 23, 2013, who reviewed
Petitioner Daniels' reply and reviewed
the Court.file; including
reading the entire transcripts and
therefore adequately advised
Petitioner Daniels is entitled to an
Evidentiary Hearing on:1
Claim 1. Failure to call alibi
witness Renardo Daniels
Claim 2. Failure to ckll Tarar Baniels
and Counsel was
ineffective for not getting the
Brady material.
Claim 11. Brady violation for failure
to disclose "two(2)
cardboard notebook backs" containing
notes taken
by one of the witness.
on July 22, 2016, a Rule 3.850

Evidentiary Hearing was held.
The Honorable Barbara Hobbs advised Petitioner
Daniels to proceed
with the hearing and allowed Petitioner
Daniels to cross-examine
the witnesses that were called.
i-_____ _________ ________
(j- i j

..

will designate Petitioner
page number and/or Exhibit.

r;

Initial Brief followed by any appropriate

2

At the end of the hearing,

the Honorable Harbara Hobbs
requested Final Written Closing Arguments
to be submitted from
the Defense and the State.
Subsequently, the Honorable Harbara Hobbs ruled
against the
^ Petitioner. Petitione r Daniels apeeal
to the First District Court
of Appeal.
The First District Court

of Appeal Affirmed Petiti oner

Daniels’ appeal on August 2H,

2020 .Petitioner rpetition the Court
for Panel Rehearing. The First District Court
of Appeal denied
the panel rehearing on October 27,
2020.
The Florida Supreme Court

dismissed Petitione r appeal on

-November 9, 2020.

3

REASON FOR GRANTING

DUEIreocEss“rGmsRS

THE

petition

PfITr*ER WAS denied

AMENDMENT to THE CONSTITUTTnMF*^H' SIXTH' AND FOURTEENTH
COURT OF APPEAL AND ?S sEm^ TrDm^E THE F^T Di™T
2»SIDED A CONSTITUTIONAL OUESTION0™1^ CIRC0IT COURT HAS

SENSES rsi "Z^D^xonaer'im

SUPREME
* V* MARYLAND, AND STRICKLAND V
• WASHINGTON.
The Petitioner acknowledge that
an application for writ for
Certiorari is reviewed within the
discretion of the Court and is
not a right of litigant.
However, the'Petitioner
: submit that there
are compelling reasons to
review the decision in this matter,
given that a split of
authority exist as to two important
constitutional issues
decided adversely tonFetitioner
: herein.
As a factor to
guide the discretion of the Court
and to
support review, Supreme Court Rule
10(a) provides:
"...a United States
entered a decision .Court of Appeals has
in conflict with the
decision ofdecision
another D.s. court of Ap«|ls»
In Brady v * Maryland,373 U.S.
Ct. 1194, 10 L. Ed. 2d(1963) —
held the United States
Attorney shall disclose
any evidence
favorable to the
defendant on the issue of
9uilt or innocence,
without regard to
materiality, counsel for the defendant,
or the
defendant if not
represented by counsel
shall be provided such
evidence promptly after the
United States Attorney acquires
knowledge thereof.
When rooted in the

Due Process Clause.. •or in the
Compulsory
Process or Conforntation Clause
of the Sixth Amendment the
Constitution
guarantees criminal defendant a
meaningful
opportunity to
present a complete defense.

4

This case
important issues

for resolving these
The Trial Court has

overlooked or
misapprehended the Constitutional
violations presented in this
case * The State Attorney deliberate
suppression of the "two(2)
cardboard notebook backs"
denied Petitioner: due
process of law
to examine evidence
on the issue of innocence
or guilt. This
Court should grant the appeal and
upheld the Constitutional
requirements of Brady,
Strickland, and due process of Fifth,
Sixth, and Fourteenth Amendment
requires factual issues under
these circumstanc es to be remanded
with instructions for a
new trial.

■5

argument and citations OF AUTHORITY.
1.
Brady violation cSim, ^s^he*^.Petitioner. Daniels'
of law was a constitutional violat^06 aS a matter
Brady v. Maryland.
lolatl°n pursuant to
a. Argument on Merits.
Prior to his trial,.Petitioner,

Daniels requested the State to
relinquish all Brady material.
The State did provide Petitioner
Daniels with some
(Documents) which included
a copy of Florida
Department of Law
Enforcement Investigative
Report. The Report
clearly state:
in whichPheVto!k notls ’of^hat^13 ?°tebook backs
^-ssea during Sf*
ha
January
"The notes will be
hiMaintained in Related Item Section
of this case
case file and entered
as Related Item #61".
See Appendix: C/.,
of Law Enforcement
At the Evidentiary Hearing
after questioning by Mr.
Harrison,
Petitioner
Daniels stated:
number^i 1 * judge Sjostrom YOi’ jb°Ut your claim
entitled to an IvfdenMaru^ d ■that you were
number 11. He summari^ hearing on claim
order as follows
°S pa?e 13 of his
failure to discing +. ^
Brady violation for
containing notes taken^S3^09?3 notebook backs
Whidh had information abou?nL°f thf wit^es.;
book backs, or had written
wo cardboard notebacks?
written something on those
A. Willie Nelson.
Q. Okay, And do
you recall what Willie
to at your trial?
Did he testify for Nelson testified
you?
A. Against me.
Q. Against you. And what did he
to you? what did he sav th +- Say that was damaging
say that you claim was not true?
6

h. Say ..that again.
recall?*^ W11Ue Selsoft testlfV to at trial, as you

a‘ ^a\was n0t true? That 1 admitted to him that I had

to !oaitS 52?"? kllJef' that 1 paid Fernando TayJo?
to do it. That I went to Sunshine Trailer f>ark in
L the?°rnty aad knockea °n her door and walked up to
«n S™
Tayl°r “alked Up to her door, sS5t h,

h. And more stuff, but I can't remember everything.
Q. Okay. Let me ask
on 4-v,
~
„ you this- wh^t is it that was written
on the cardboard notebook backs? What were the notes
that were written?
A. I don't know. They wasn't ever disclosed to us. I never
received a copy of the cardboard notes.
Q. Well—
A. Due to the cross examination.
0. Okay. And you feel those would have been important for
you and for your—
A. It would have contradicted his story from the stand,
Backing up the notes would have been the same as what
he testified to.
O'.'. All right. Did you tell Mr. Taylor about this?
S'

Shin ^lscovar?<3 the
- about the cardboard
notes when I was doing my 3.850 motion. Mr. Taylor filed
J m0tl0n for the staka to turn over all Brady ma^rl^ls?

O. All right.
A. They didn't turnn over that. They had that evidence,
and
didn't turn it over.
See Appendix D , lc°Py of^vl^iar^e^g1 twiscript^f*^7® *
Harrison questioning Appellant Daniels)
rscord supports Petitioner: Daniels' claim threw his
testimony that the State Attorney had the two(2) cardboard notebook backs. The State Attorney never cross-examine?Petitioner
Daniels on the Brady claim, because
(7

the State knew that they had

the two(2) cardboard

notebook backs but failed
to produce them at
the Evidentiary Hearing.
The record also

supports .Ftetitioner Daniels

Brady claim threw
the State Attorney entering Exhibits
No. 1 and 2, which were the
Florida Department of Law Enforcement
The State
Attorney during questioning
Taylor published
into evidence State Exhibits 1, which is
a copy of answer to
discovery filed by the
State and Exhibit 2, which is IR 107 which
references to the interview
of Willie Nelson. The State question
went as follows:~
^=eip^tcuia^notes' a"a
2, which is IR 107 which ref Xt marke^ as State's
of Willie Nelso
intadi a S6?^8 the int^view
turn to page two therS does
Ca"
that report that Willie
ate' then in
on the cardboard backs anri f-K !?ad some notations
evidence, id. at P 54 t * r»o°i
was taken into
• 54 Line 16-25|F3dBib)ii.tt. A\))("ib")
It is indisputable that the two(2)
cardboard notebook backs
exist.. The State Attorney even admitted
this in his Response to
Specific Demand for
Brady and Giglio Material.
Further, the State
Attorney produced a copy of the Florida
Department of Law Enforcement Investigative Report. The
report clearly states}
"Nelson provided two(2)
cardboard notebook backs in
which he took nofpe
during their encounter ££
Section^of
Related Item j}Ii"?
This was the State
the Specific Demand
Attorney further

‘V** *alatad »a">
and e!>tered «
Attorney attempting to claim that he meet

for Brady and Giglio request. The State

published this exhibit at the
Evidentiary Hearing.
8

However, the State attorney is mistaken
and fell to meet
the Specific Demand for
Brady and Giglio request. The State
Attorney never produced the actual two(2)
cardboard notebook backs
or a copy of the two(2) cardboard
notebook backs that were signed
and dated by Nelson to the defense.
The State Attorney was aware of the existence
of the two(2)
cardboard notebook backs,
once it received the Florida Department
of Law Enforcement Investigative Report.
The Florida Department
of law Enforcement Investigative Report clearly
states that
the two(2) cardboard notebook backs exist.
and will be maintained
in the Related Item Section of this
case file and entered as
Related Item #61.
The State Attorney could

have easily refuted'iPetitionerjJ Daniels
Brady claim by producing the two(2) cardboard
notebook backs, that
were maintained by the Florida
Department of Law Enforcement, and
kept in the Related Item Section, Item #61.
But at the Evidentiary
Hearing the State Attorney still fell to
produce the two(2)
cardboard notebook backs signed by Nelson.
In the alternative the State Attorney produced
a copy of the
““Florida Depart of
Law Enforcement Investigative Report. This
was the same report that the

State Attorney used in his Response
to Specific Demand for Brady material Id.
at'P.54 of
But Petitioner

Daniels argues that the "two(2) cardboard

notebook backs that

were signed by Nelson", is. not the same as the
Florida Department of
Law Enforcement Investigative Report. There
is no signature of Nelson
on the . Florida Department of Law Enforcemerit Investigative Report, The Report is
a list of statement and
hot a copy of the "two(2) cardboard notebook
backs that were

9

signed by Nelson".
This is the State Attorney attempt
to manipulate the court
into thinking that the Florida
Department of Law Enforcement
Investigative Report is the
copy of the "two(2) cardboard
notebook backs that were signed by Nelson".
Therefore, by the State

Attorney own admission and Exhibits
No. 1 and 2, supports Petitioner Daniels
s Brady claim, that the
two(2) cardboard notebook backs exist
and were taken into
evidence.
The two(2) cardboard notebook backs
were never produced to
Petitioner Daniels, e^en after Specific Demand
for Brady and
Giglo material or at the Evidentiary Hearing.
Which is clearly
supported by the Evidentiary Hearing Record.
Furthermore, the State Attorney suppressed
evidence and the
evidence was favorable
or exculpatory, and said evidence was
material to the case issues.
All favorable evidence in the State's possession,
including
law enforcement agencies must be disclosed
to the Defense.Brady
supra Also see Norris
▼. Schotten,146 F. 3d 314, 334(6th Cir.
1Q98)(stating Brady principles (which
require prosecutors to
disclose evidence favorable
to the defendant) only apply when the
prosecutors dp not provide that information or

when they disclose
the information late in a
way that prejudices'the defendant).
See Mahler v. Kaylo,537 F.3d 494,494(5th
Cir. 2008)(reversing
district court s denial of defendant
's petition for habeas relief.
The state court's judgment that the witness
statements withheld
by the prosecutor were not material
was unreasonable under clearly
10

established federal law.).
Promises

either direct or implied, made to
a witness in
exchange for his/her
testimony must be disclosed because they
related directly to the
credibility of witness Giglio,supra
and Haber v. Wainwright,756 F.
2d 1520(11th Cir. 1985).
Failure to comply with the
requirements of the cases
cited above constitutes reversible
error if the prosecution
suppressed evidence, and the evidence
was favorable or
exculpatory, and said evidence
was material to the case issues,
Favorable evidence, as defined in the above
cases is material,
thus failure to disclose is
a constitutional error, if there is
a reasonable probability the trial
result would be different.
Kyles v. Whitney,514 U.S. 41Q (1995).
b. Standard of Review.
To Establish

violation under Brady v. Maryland,337 U.S.
83 S.. Ct. 1194, 10 L.
Ed. 2d(1963), a defendant must show:
(1>

defendant*

favorable to

(2) the defendant did not posses fhD Q

(3) the prosecution
suppressed the favorable evidence and
(4)

---- -

would have been different.

the outcome

This case is on point with Brady. Petitioner

Daniels relies
on the record, constitutional rights
guaranteed by the Fifth,
Sixth Amendments and due
process clause of the Fourteenth
Amendment and the requirements of Brady,
that clearly states:
1 1

"All favorable evidence
State’s possession, including
law enforcement agencies,in must
be disclosed to the defense"
Petitioner5 Daniels will establish
a violation under Brady,
by relying on the record.

(1) The

the defendant? P°SSeSSed 6Vide"Ce Arable to

Petitioner- Daniels argues that the
government possessed
evidence favorable to the defendant in the
form of "two(2)
cardboard notebook backs, with written signed
statements of
one of the State’s witness".
This evidence was in the State'Attorney
possession, which
was revealed by the State Attorney
in its Response to Specific
Demand for Brady and Giglio material,
in the form of Florida
Department of Law Enforcement
Investigative Report, which
clearly states:
"Nelson provided two(2)
cardboard notebook backs in
which he took notes of „hst
Baniels and he “
during their encounter back in January 2014"discussed
"The notes will be
case fil0 m;*intained in Related Item Section
of this ^case
file and entered
Id. at IB/ pg.9; ARPEKBIX/D. as Related Item *61"
The record clearly supports this claim.
(2) The defendant did not possess the
and

-Petitioner: Daniels argues, that he did
not posses the
evidence and could
not have obtained the evidence with
reasonable
diligence, because the ”two(2) cardboard
notebook backs" were
in the possession of the
Florida Department of Law Enforcement
and maintained in Related Item Section,
entered as Related
Item#61.Id. at "IB"

Pg.16,17,19,20 and IPPENPIXAD.

12

(3) The prosecution
Petitioner Daniels

suppressed the favorable

evidence.

argues, that the State

Attorney suppressed
Attorney by his
own admission,
by way of (1)
Response to Specific Demand for
Brady and Giglio
request; and (2)
reproduction of the
Response to Specific Demand
for Brady and Giglio
material, at the
Evidentiary Hearing. Id • at
"IB" pg.9.
the favorable

evidence. The State

The State Attorney
was aware of the
existence of the two(2)
cardboard notebook backs,
once the State Attorney
received the
Florida Department
of Law Enforcement
Tnvestigative Report, which
clea ly states:

;Uri"8 tHeIr enc°unter back XXllXrX 2^’Section‘of Xll
ln ths ^ated Item
Item#61".
C3Se flle a"d entered as Related

Id. at "IB
To meet the

P&-9, Exhibit A,

and Appendix jD.

requirements of Brady
supra, which states:
"All not some favorabl
possession including
law enforcement
must be disclosed
to the defense".
The Supreme Court
adjective "all" (instead
of "some" or
"part") and "
(instead of " not required" of
"Discretion") in
Brady v. Maryland is
significant. The Supreme
Court
use the adjective "all" to mean
everything, and "must" to
mean necessity or obligation.
Id. at Brady.
The State Attorney clearly
suppressed favorabl e evidence in
the form of tha "
two(2) cardboard
notebook backs, that were
maintained by the
Florida Department
of Law Enforcement. Thus,
13.

suppression of the !'fwo(2)

cardboard notebook backs denied
due process of his
constitutional rights.
Therefore,
the failure of the State Attorney
to produce
"All favorable evidence in the State's
possession, including law enforcement agencies,
must be disclosed to the defense,
violates Brady, supra.
‘Petitioner Daniels

The court's decision was
contrary to (conflicting with)
clearly established federal law.
It is important to note that ■
dicta (plural of dictum)
are not considered clearly
established
federal law. Only Supreme Court
holdings are considered law
clearly established
by the Supreme Court.
See Williams v. Taylor
529 U.S. 362,406, 120 S. Ct.
1495, 1519-20, 146 L. Ed.
2d 389,
426(2000)("A state court decision
will also be contrary to this
Court s clearly established
precedent if the
state court confronts
a set of facts that are
materially indistinguishable from a
;
decision of this Court and
nevertheless arrives at a result
different from our precedent".);
see also Ramdass v. Angelone,530
U.S. 156,165-66, 120 S.
Ct. 2113,2119-20, L.
Ed. 2d 125,135-36
(2000)(stating that " a court acts
contrary to clearly established
federal law if it applies
a legal rule that contradicts
our prior
holdings or if it reaches
a different result from one of our
cases
despite confronting indistingnishable
facts" ;
The Supreme Court
S decision in Brad,
Maryland reached
different conclusion from the
one reached by Appellant's State
Court.

14

Furthermore, The Attorney General in her Response Brief to
i Petitioner’s Initial Brief stated:
"Even though trial counsel did not recall having
"cardboard" given to him in discovery",...
"Even if trial counsel did not have the cardboard,
Petitioner's claim that the cardboard notes would
have made a difference in his case were entirely
speculative as he admitted that he did not know
what they said".
Id. at p.10/11, Attorney General Response Brief. APPENDIX dj.
Petitioner

Daniels argues that the Attorney General is also

validating Petitioner

Daniels' claim to the importance of the "two(2)

cardboard notebook backs, because Petitioner

did not know what they

said. And neither Petitioner or Trial Counsel ever received a
copy of them.
Therefore, by the Attorney General own admission stating that:
"Even though trial counsel did not recall having "cardboard" given
,

nr"

•

••• ■ v ■-

to him in discovery" and "Even if trial counsel did not have the
cardboard". The Attorney General confirms that trial counsel did not
have the "two(2) cardboard notebook backs, due to the State Attorney
failure to turn over the "two(2) cardboard notebook backs", which
violates the Brady request.
With that said, Nelson was interviewed by Special Agent Biddle
on January 3, 2005 and again March 14, 2005 and provided "two(2)
cardboard notebook backs in which he took notes of what Daniels
and he discussed during their encounter back in January 2004". "The
notes will be maintained in the Related Item Section of this case
file and entered as Related Item #61".

1*

Tihis is ^Petitioner
what the

'Daniels,'* point. Petitioner; does not know

t w o ( 2 ) cardboard notebook backs** contains and they were

never disclosed to the Defense for Appellant per Brady request.
The fact of the matter is that the "two(2) cardboard notebook
backs exists and were not disclosed regardless of their favorable
or unfavorable content, to meet the requirements of Brady,supra,
which states:
All favorable evidence in the State’s possession
including - law ehforcement agencies, must be
disclosed to the defense".
Under the facts of this case, the trial court did abuse its
discretion in denying -Petitioner's

Brady claim, and finding that

trial counsel was not ineffective for failing to pursue the "two
cardboard notebook backs".
The State court adjudication of the claim resulted in a
decision that was contrary to, or involved an unreasonable
aPPlication of, clearly established Federal law, as determined by
the Supreme Court of the United States in Brady v. Maryland,373 U.S.
83,87,83 S. Ct. 1194,1196-97, 10 L. Ed. 2d 215,218(1963): which
resulted in light of the evidence presented in the State court
proceeding.
Slack v. McDaniel,529 U.S. 473,484,120 S. Ct. 1595,1604,146 L.

Ed. 2d 542,555(2000)(reversing after determining defendant had
shown
reasonable jurists could conclude district court's procedural rulings
were wrong ). The Second Circuit applied the same standard in
Matias v. Artuz,8 Fed. Appx. 9,ll-12(2nd Cir. 2001).

-1-6

Miller-El v. Cockrell,537 U.S. 322,327,123 S. Ct.
1029,1034,
154 L. Ed. 931, 944 (2003) ("A. petitioner
satisfies this standard
by demonstrating that jurists of
reason could disagree with the
district court’s resolution of his
constitutional claims or that
jurists could conclude the
issues are adequate to deserve
encouragement to proceed further".).
(4) Had the evidence been disclosed to the defendant
there
i ,is a reasonable probability that the outcome
would have been different.
Petitioner Daniels argues, that had the evidence been
disclosed,
there is a reasonable probability that the
outcome would have been
different. The two(2) cardboard
notebook backs could have been used
for the impeachment of Nelson,
who testified for the State.Id. at
"IB" Pg. 26.
In the Course of a criminal

prosecution, the State has a
continuing duty to honor a defendant
's constitutional rights, which,
according to Brady, requires the State to disclose
any evidence in
its possession or control that is material
either to guilt or
punishment. In this regard the

prosecutor must disclose evidence

that could in the eyes of a neutral and objective
observer, alter
the outcome of the proceeding.
The State Attorney failure

to produce the "two(2) cardboard

notebook backs violated due process clause and equal
protection of
the Fourteenth Amendment, The State Attorney deliberate
suppression
of the ”two('2) cardboard notebook backs"
denied Petitioner’&:due
process of law to examine evidence on the issue of innocence or
guilt. (See Brady v. Maryland,373 U.S. S3 10 L. Ed.
2d 215, 83 S.
Ct. 1194). (The prosecution
’s responsibility for failing to disclose
1(7

known, favorable evidence rising
to a material level of importance
is inescapable. Kyle n.S.cat
_ ,115 S. Ct. at 1567-68(emphasis
added)).
B.

Assistance Extend to^esenMi^Alibi^id^

holdi^l i„rattu^n' P“rSUant t0 the
2‘ J?Llri?1TC°«t 6rred in denying Appellant's
claim of Ineffective Assistance of Trial
Counsel s failure to call an available
witness, violating Strickland
a. Standard of Review.
In Strickland v. Washington,466 U.S. 568 L. Ed.
2d 674,104 S.
Ct. 2054(1984), the Supreme Court established
a two prong test to
povern ineffective assistance
of counsel claims. To obtain reversal
of a conviction or to vacate
a sentence based on ineffective
assistance of counsel the defendant

must show (1) that counsel's

performance fell below an objective standard of
reasonableness; and
(2) that there is
a probability that, but for counsel s objectively
unreasonable performance, the result of the
proceeding would have
been different.Id. 466 at 688-689.
b. Argument on the Merits.
Petitioner asserts that Trial Court
erred as a matter of law by
denying Petitioner s claim of Ineffective Assistance
of Counsel,
which cuts two-folds, First(l) due to Counsel
s failure to call an
available alibi witness thus violating Strickland.
At the Evidentiary Hearing, after questioning by the State
Attorney and Mr. Harrison,
Mr. Taylor(Trial Counsel) admitted he had
two theories of defense from the evidence gather from the
case. Which
were ( 1)
someone else did it and (2) an Alibi that Petitione r did not
do it.Id. at (Evidentiary Hearing,
Pg.46).
18

2. The Trial Court erred in denyingi.Petitioner Daniels'
claim of Ineffective Assistance of Trial Counsel's
failure to call an available alibi witness,
violating Strickland.
a. Standard of Review.
In Stfcickland v. Washington,466 U.S. 668 L. Ed. 2d 674,104 S.
Ct. 2054(1984), the Supreme Court established a two prong test to
govern ineffective assistance of counsel claims. To obtain
reversal of a conviction or to vacate a sentence based on
ineffective assistance of counsel the defendant must show (1)
that counsel's performance fell below an objective standard of
reasonableness; and (2) that there is a probability that, but for
counsel's objectively unreasonable performance, the result of
the proceeding would have been different.Id. 466 at 688-689.
b. Argument on the Merits.
Petitioner

Daniels asserts that the Trial Court erred as a

matter of law by denying Appellant Daniels' claim of Ineffective
Assistance of Trial Counsel, which cuts two-folds. First(1) due
to Counsel's failure to call an available alibi witness thus
violating Strickland.
At the Evidentiary Hearing, after questioning by the State
Attorney and Mr. Harrison, Mr. Taylor(Trial Counsel) admitted
he had two theories of defense from the evidence gather from the
case. Which were (1) someone else did it and (2) an Alibi that
Petitioner

Daniels did not do it.Id. at (Evidentiary Hearing, P.46).

Mr. Taylor further stated that because a snitch witness for
the State were saying that, Mr. Daniels and Wolf killed Dupont
and another was saying that Mr. Daniels, had Wolf killed Dupont
•, 19

Mr. Taylor further stated that because a snitch witness for the
State were saying that, Mr. Daniels and Wolf killed Dupont and
another
was saying that Mr. Daniels, had Wolf killed Dupont from the
evidence
that was presented at trial, which consisted of no physical evidence
or no eyewitness that put Mr. Daniels at the crime scene. Mr. Taylor
decided to go with pointing the finger
at someone else even though
he had an alibi for Mr. Daniels waiting to testify.Id.
at Evidentiary
Hearing, (p.46-59).
After questioning by Petitioner, Mr. Taylor admitted that
Renardo Daniels was listed as an alibi witness for Petitioner,
but
he did not call him to testify.
Mr. Taylor admits that he never talked to Renardo Daniels, but
Monica Jordan his investigator would have interviewed Renardo Daniels
and any other witnesses. Then Monica Jordan would report her findings
and concerns to Mr. Taylor.
j.
In Monica Jordan, Witness Overview that Mr. Taylor received
clearly lists Renardo as Possible Witness for the Defense,
Petitioner
published Monica Jordan's Witness Overview into the record.Id at
Evidentiary Hearing (p.62), as follows:
- --"Renardo Vontell~Daniels (need to be listed as witness,
notice of alibi) 350-556-6456.
?!nielLb^0therualibi" WaS ridin§ with Daniels to Bonifay
he wouid drive because Daniels would get tired. Was riding
with Daniels m early morning hours of Dupont's death
because he>learned of her death the next morning. Got back
to Renardo s house around 4:15 am.
See Exhibit E?, (Witness Overview, p.4/13) ("IB"), and Appendix

.

Mr. Taylor knew that Renardo Daniels' was available to alibi
Petitioner and fell to call him as an alibi witness.

20

Furthermore it was Mr
• Taylor own trial strategy,
Mr. Taylor tactical theory
not to call alibi
witness Renardo
Daniels was not sound, because
regardless of what theory of defense
Mr. Taylor decided to
employ, the alibi
witness Renardo Daniels
would have bolstered
the defense theory that someone else
did it.
Mr. Taylor identified his
strategies but failed to employ
them, even after the State
Attorney presented evidence that
Appellant Daniels^ was in Gadsden
County the night of Dupont1s
death. Mr. Taylor still fail
to employ his
own strategy, with that
said, the alibi
goes hand and hand
with the alternative, that
someone else did it.Id.
at "IB" p,12,13,14,15.
Thecae,ficiency in Mr.
Taylor actions did hot amount to the
standards to support sound
strategy; Mr.
Taylor actions prejudice
Petitioner : Daniels because the
alibi testimony of Renardo
Daniels
would have
proven that Appellant Daniels
was not in Gadsden County,
the night of
Dupont's death, did not
go to-Dupont-house, 'and
did not see Dupont that night.
It would have proven also that
Petitioner-. Daniels did not talk to
or see Fernando Taylor(Wolf)
about killing Dupont
or hired him to kill
Dupont. Fernando Taylor
was charged with killing
Dupont and found innocent of killing
Dupont.
Petitioner : Daniels
present evidence in his

was deprived of his

constitutional right to

defense at trial.

Second(2) Petitioner :
r ; Daniels asserts that Trial Court
erred by
denying Petitioner:
Daniels' claim of Ineffective
Assistance of
Counsel, because counsel failed to
pursue the two(2) cardboard
notebook backs
provided by Nelson, thus,
violating Brady and was
?1

sufficient as a matter of law under
Strickland.
At the Evidentiary Hearing,
Mr. Taylor was questioned
by the
State Attorney and admitted that he did
receive a copy of Response
to Specific Demand
for Brady and Giglo material
in the form of a
copy of the Florida Department
of Law Enforcement Investigative
Report, which clearly states:
"Nelson provided two(2)
cardboard notebook backs in
which he took notes of what
during their encounter back Daniels and he discussed
in / January 2004".
The note will be
maintained in the Related Item
Section if this case
file and entered as Related
Item #61'
Id. at "IB

pg. 1 6,17,and Appendix

Also at the Evientiary Hearing, Petitioner

Daniels,
specifically asked Mr. Taylor, did he
ever get a physical copy of
the two(2) cardboard notebook backs,
Mr. Taylor answered that he
"didn't get the cardboard,
no .Id at "IB" pg.18 19
Petitioner: Daniels went further with
questioning Mr. Taylor
and broke the
question down in layman terms
and asked "they didn't
actually give
you a copy of the cardboard
notes"ld. at "IB" pg 19
Mr. Taylor admitted " I don*t recall
seeing cardboard notes,
copy of statement".id at "IB" pg.19.
Petitioner

Daniels questioning of Mr.
Taylor went as follows:
Q’ cardboard
0“°"^ T
the two
produce those, did'they?
Py
thenl? They never did

writS a°cumKtf°r„o!:Js0?^^ M1 1 kn°" - I

Mspecific
22\SS
SS TJ
ones 1 don't rfcan S

saw

-these
ar;

at the time of the:trial an* ?
”°w' but 1 had everyone trial and I had the documents in
22

order to cross examine the witnesses
put on. And I thijjk the record shows that.
Q. Okay. But the State never did produce a copy of those?
A. I'm sorry?
0. Did you ever get a copy — ask for the Brady Material
and did the State produce a copy of those, or a physical
didYthey?hS tW° cardboard? They never produced that,
th? ca^dboard' no- ^t we had the documents.
We had copies of writings of witnesses. I don't know how
to answer that question.
Q‘

90 at' the state”ent never had the
actual words that came over the cardboard. It's just
So c?r?S thrOUgh the cardboard that was written,
and the State never produced those two cardboard cooies
f those cardboards for you. After you asked for all
the Brady Material, and even though it was Brady
around
didn't produce all the evidence
?,* S wbat 1 m sa^ing is that they never physically
actuaHy pr°duced a copy of those cardboards to you
They produced a copy of the overall, but never actuallv
Kat corS 3 phYSiCal copy °f those
cardboards.

document, and we then find it and make sure it's there
I don t see anything to indicate I didn't have that
1 do?,t: know how to answer that question.
I can t tell you what I don't recall.
Q. Okay.
still doesn't saY — they didn't
_ .
..But it
.
actuaHy give you a copy of the cardboard notes.
That's all I'm saying.
A. I don't recall seeing cardboard notes, copy of
statement -0. That's all I'm asking you sir.
A. Okay.
Id. at Evientiary Hearing Transcript and "IB"
, also APPENDIX E|.

23

There was no plausable
excuse for Mr. Taylo r ftot to pursue
the "two(2) cardboard notebook backs,
provided by Nelson", for
the impeachment of Nelson.
Mr. Taylor knew that the ”two(2)
cardboard notebook backs
exist and that the Florida
Department
of Law Enforcement maintained the notebook
backs in Related
Item Section of their case file and
entered as Related Item #61.
The record clearly supports Petitioner. Daniels., claim that
Trial Counsel (Mr. Taylor), threw his
own testimony, was
ineffective for failing
to pursue the "two(2) cardboard notebook
backs provided by Nelson thus
violating Brady and Strickland,
and constitutes reversible error.
"Exculpatory or impeaching evidence
must also be material,
which means that there
must be
"reasonable probability that,
had the evidence been
disclosed to the defense, the result of
the proceeding would have been
different". United States v.
Bagley,472 U.S. 667,682,105 S.
Ct. 3375,3383,87 L. Ed. 2d 481,
494(1985); also see Kyles v. Whitley,514 U.S.
419,421-22,115 -S.
Ct. 1555,1560,131 L. Ed.
2d 490,498(1995) ("(BUcause the net
e^ec^
t^e evidence withheld by the State
in this case raises
a reasonable probability that its disclosure
would have produced
a different result, I defendant I
! is entitled to a new trial" . ) ..
Petitioner further challenge the Trial Court,the State
Attorney,
and the Attorney General to show him where they
actually produced
the "two(2) cardboard notebook backs
or a copy of the "two(2)
cardboard note book backs,-that
were signed and dated by Nelson
at the Evidentiary Hearing.

24

CONCLUSION
WHEREFORE? the violations of Brady, Giglio and Strickland,
Petitioner respectfully request this Honorable Court to reverse
his conviction and remand for a new trial.
I declare under penalty of perjury, that I have read the
foregoing petition and that the facts stated in it
are true and
correct.
I HEREBY CERTIFY the foregoing Motion is made in good faith
with no attempt to delay or thwart the-due administration of
Justice.
Signed under the penalty of perjury,
Date: NOVEMBER 2^, 2020
HERMJNDEZ DANIELS"11742-017
FEDERAL CORRECTIONAL COMPLEX
COLEMAN USP-1
P.0. BOX 1033
COLEMAN, ;F1t:33521

25

F. CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing
instrument has been furnished to:
(

SOLICITOR GENERAL OF THE UNITED STATES
ROOM .5614, DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVE.,'N.W.
WASHINGTON, D.C. 20530-001

I declare under penalties of perjury, that I have read the
foregoing motion and that the facts stated in it are true and
correfct.
Pate: NOVEMBER^j^L 2020

Signed under the penalty of perjury,

HERNANDEZ DANIELS 11742-017
FEDERAL CORRECTIONAL COMPLEX
COLEMAN USP-1
P.O. BOX 1033
COLEMAN, FI. 33521

2-5

